OFFICE OF INSPECTOR GENERAL
1B




                     Audit Report
          Fiscal Year 2009 Financial Statement Audit
                     Letter to Management


                      Report No. 10-03
                       March 11, 2010




     RAILROAD RETIREMENT BOARD
     0B
                     UNITED STATES RAILROAD RETIREMENT BOARD

                                   OFFICE OF INSPECTOR GENERAL




Memorandum
                                                                    March 11, 2010


Michael S. Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit a memorandum on internal control
communicating certain matters concerning internal control that came to our
attention during our recent audit of the Railroad Retirement Board’s (RRB)
financial statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated November 9, 2009, except for matters relating to the fair
market value of the net assets of the National Railroad Retirement Investment
Trust as of September 30, 2009, as to which the date was November 16, 2009.
We performed our audit in accordance with U.S. generally accepted government
auditing standards and OMB audit guidance as applicable to the scope of our
audit. 1 We have not considered internal control since we obtained sufficient
appropriate audit evidence to support the audit opinion on November 9, 2009;
internal control was not among those matters to which we gave consideration
between November 9th and November 16th.

During our audit, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a
significant deficiency, the details of which are presented in the attached
memorandum. That memorandum also presents the full text of those matters
previously reported as material weaknesses in conjunction with our opinion on
the financial statements. However, neither this letter, nor the attached
memorandum, modifies our report dual dated as of November 9, 2009 and
November 16, 2009, referred to above.

Our observations concerning internal control were presented to responsible
agency management who were offered the opportunity to review and comment
on the draft memorandum. Their responses are also attached.


1
 See our report on the RRB’s financial statements for a full description of the scope and
methodology.


844 N RUSH STREET CHICAGO IL 60611-2092                                   Printed on recycled paper with soy ink
In planning and performing this audit, we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the
RRB’s principal financial statements and not to provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill the
RRB’s control objectives is the responsibility of management. Because of
inherent limitations in any system of internal control, errors or irregularities may
nevertheless occur and not be detected. Also, controls found to be functioning at
a point in time may later be found deficient because of the performance of those
responsible for applying them. There can be no assurance that controls currently
in existence will prove to be adequate in the future as changes take place in the
organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB’s system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during the audit.


                                                 Very truly yours,

                                                 Original signed by ...

                                                 Martin J. Dickman
                                                 Inspector General


Attachments

cc: V.M. Speakman, Jr., Labor Member
    Jerome F. Kever, Management Member
    Kenneth P. Boehne, Chief Financial Officer
    John M. Walter, Chair, Management Control Review Committee
    Henry Valiulis, Senior Executive Officer
    Steven A. Bartholow, General Counsel
    Beatrice E. Ezerski, Secretary to the Board




                                         2
Letter to Management                                               Page 1
                        Memorandum on Internal Control
                              Table of Contents


MATERIAL WEAKNESSES 
 Information Security                                                   2 
 Financial Reporting                                                    2 
 Internal Control Over Non-Integrated Sub-Systems                       2 
 OIG Recommendations and Management’s Response                          3


OTHER MATTERS INVOLVING INTERNAL CONTROL 
 Accounting Procedures Need Updating                                    4 
 OIG Recommendations and Management’s Response                          4 
 Personally Identifiable Information in the Trial Balance               5 
 OIG Recommendations and Management’s Response                          5 
 Accounting for RUIA Contributions Could Be More Effective              5 
 OIG Recommendation and Management’s Response                           6 
 BFO and the Office of General Counsel Could Strengthen Coordination    6 
 OIG Recommendations and Management’s Response                          7 
 Controls Over FMFIA Could Be Improved                                  8 
 OIG Recommendations and Management’s Response                          8


ATTACHMENTS 
 Management’s Response – Bureau of Fiscal Operations                   10 
 Management’s Response – Office of General Counsel                     13 
 Management’s Response – Executive Committee                           14 
 Management’s Response – Management Control Review Committee           15 
    Letter to Management                                                               Page 2
                            Memorandum on Internal Control

MATERIAL WEAKNESSES

In conjunction with the Office of Inspector General’s (OIG) opinion on the RRB’s
financial statements for the fiscal years (FY) ended September 30, 2009 and
2008, we reported the following material weaknesses. 1

Information Security

During FY 2009 the OIG evaluated the RRB's information security program
pursuant to the provisions of the Federal Information Security Management Act
(FISMA). 2 OIG auditors concluded that although the RRB has implemented all
nine program elements required by FISMA and made notable progress in
addressing previously cited deficiencies, the security program, as a whole,
remains undermined by weaknesses in access control and controls over the
certification and accreditation process.

RRB information technology managers are working to address the remaining
weaknesses.

Financial Reporting

RRB financial managers have worked to strengthen internal control over financial
reporting during FY 2009. During the third quarter of FY 2009 the agency
implemented enhanced controls to address the weaknesses that, in the
aggregate, were the basis for the OIG's assessment of a material weakness
during the prior year. 3 However, because these enhanced controls were not
implemented until mid-year, they could not be relied upon to ensure the accuracy
of accounting and reporting for FY 2009 and had not been in operation for a
period of time sufficient to support an assessment of overall effectiveness.

RRB financial managers have expressed their commitment to a quality financial
reporting process and have been responsive to OIG recommendations.

Internal Control Over Non-Integrated Sub-Systems

Internal controls do not ensure the completeness of transactions originating in
non-integrated sub-systems.

An organization’s financial statements are presented with management's implicit
assertion that all transactions and other events and circumstances that occurred

1
  “Report on the Railroad Retirement Board’s FY 2009 Financial Statements,” OIG Report No.10-02,
November 20, 2009.
2
  “Fiscal Year 2009 Evaluation of Information Security at the Railroad Retirement Board,” OIG
Report No. 10-01, November 12, 2009.
3
  “Fiscal Year 2008 Financial Statement Audit Letter to Management,” OIG Report No. 09-02,
March 2009.
Letter to Management                                                     Page 3
                        Memorandum on Internal Control

during a specific period and that should have been recognized in that period
have, in fact, been recorded (completeness) and that liability, revenue, and
expense components are recorded at appropriate amounts (accuracy, valuation,
allocation).

The RRB's financial reporting structure relies on an automated general ledger
which receives information electronically from both integrated and non-integrated
sub-systems that support transaction processing. The RRB's control structure is
not comprehensive with respect to the reconciliation of the general ledger to
non-integrated sub-systems. As a result, errors in intermediary manual
processes may occur and go undetected indefinitely.

The OIG has previously recommended that the RRB perform reconciliations of
activity originating in non-integrated benefit payment sub-systems. We also
brought this issue to management's attention in connection with our audits of
agency financial statements for FYs 2000, 2001 and 2008. Although financial
managers recently implemented a reconciliation process for one major sub-
system, the current reconciliation process is not comprehensive with respect to
all such systems and transaction flows.

RRB financial managers are receptive to evaluating the feasibility of
implementing an expanded program of reconciliations with the understanding
that such a program will require extensive cross-organizational coordination and
cooperation. They have agreed to study the matter, together with program
managers, in order to identify a solution that provides for a comprehensive
reconciliation process with adequate separation of duties.

Recommendations

We recommend that the Bureau of Fiscal Operations (BFO):

   1. inventory the various non-integrated processes that support financial
      accounting which should be subject to reconciliation; and

   2. work with the Executive Committee to secure the cross-organizational
      cooperation necessary to implement a comprehensive reconciliation
      process with adequate separation of duties.

Management’s Response

BFO has agreed to work with other bureaus and offices to inventory and study
the various non-integrated processes that support financial accounting. They
have also agreed to work with the Executive Committee to secure the cross-
organizational cooperation necessary to implement a comprehensive
reconciliation process. The full text of management’s response is presented as
Attachment 1 to this memorandum.
Letter to Management                                                        Page 4
                         Memorandum on Internal Control

OTHER MATTERS INVOLVING INTERNAL CONTROL

During our audit, we also noted certain other matters involving the RRB’s internal
control structure and its operation. Although these matters do not rise to the
level of a material weakness or significant deficiency, either individually or in the
aggregate, they represent areas in which control weaknesses increase the risk of
error or mishandling.

The details of our observations and recommendations for corrective action follow.

Accounting Procedures Need Updating

During our audit, we found that agency accounting procedures are not always
updated in a timely manner. Documented procedures provide guidance to
internal and external sources regarding the agency’s policy on various subjects
and also identify specific directions for employees in carrying out their
responsibilities.

The Bureau of Fiscal Operations (BFO) has not documented some of the
detailed procedures for major accounting activities in the Accounting Procedures
Guide. BFO management advised us that procedures are updated when time
permits and that they do not have personnel designated to update procedures on
a regular basis. We also found that BFO's Administrative Circular
governing Budget Execution had not been updated since January 2000. It
references outdated guidance, OMB Circular A-34, which was superseded by
OMB Circular A-11, Preparation, Submission and Execution of the Budget. In
order for these policies and procedures to be effective, they should be
maintained and updated on a regular basis.

Recommendations

We recommend that BFO:

   3. review the Administrative Circular governing Budget Execution and make
      updates as needed; and

   4. ensure that procedures for major accounting activities are included in the
      Accounting Procedures Guide.

Management’s Response

BFO has agreed to update the Administrative Circular governing Budget
Execution. They have also agreed to ensure that procedures for major
accounting activities are included in the Accounting Procedures Guide. The full
text of management’s response is presented as Attachment 1 to this
memorandum.
Letter to Management                                                       Page 5
                        Memorandum on Internal Control

Personally Identifiable Information in the Trial Balance

During our audit, we identified various instances of employee names and social
security numbers appearing on the hard copy of the trial balance. The
purchasing system uses RRB employees’ social security numbers as part of the
Vendor/Provider number when processing transactions for receipts and
disbursements. These transactions appear on the trial balance with the
employee’s name and social security number. Federal agencies are required to
safeguard personally identifiable information (PII) in their possession and prevent
its breach. The posting of an employee’s PII on the trial balance puts them at
risk for identity theft.

Recommendations

We recommend that BFO:

   5. revise the content of the trial balance to exclude RRB employees’ social
      security numbers; and

   6. implement procedures to safeguard the trial balances that contain PII.

Management’s Response

BFO has agreed to revise the content of the trial balance to exclude any
reference to vendor /provider numbers that have social security numbers as part
of them. They have also agreed to implement procedures to safeguard the older
trial balances that contain PII. The full text of management’s response is
presented as Attachment 1 to this memorandum.

Accounting for RUIA Contributions Could Be More Effective

During our audit, we observed that BFO’s procedures for depositing contributions
paid by railroad employers under the Railroad Unemployment Insurance Act
(RUIA) are not fully effective. Contributions are taxes paid by railroad employers
to finance the unemployment and sickness benefits paid under the RUIA.

The RUIA includes the following requirement for allocating employer
contributions between the fund that finances administrative activity and the
account that finances benefit payments.

             The contributions required by this chapter shall be
             collected by the Board and shall be deposited by it
             with the Secretary of the Treasury of the United
             States, such part thereof as equals 0.65 per centum
             of the total compensation on which such contributions
             are based to be deposited to the credit of the fund
    Letter to Management                                                     Page 6
                              Memorandum on Internal Control

                  and the balance to be deposited to the credit of the
                  account. 4

Electronic deposits are initially allocated between the fund and the account on an
estimated basis because accurate allocation between the fund and the account
must, according to the law, be based on total taxable compensation paid by
railroad employers to their employees. Taxable compensation cannot be
determined for contributions paid electronically until the railroad employer files its
quarterly report of compensation with the RRB.

BFO does not have a procedure to re-allocate contributions once they receive
the necessary additional information about compensation. As a result, current
procedures for allocating contributions between the fund and the account are not
fully effective in meeting the requirements of the RUIA.

Recommendation

We recommend that BFO:

      7. use the quarterly reports of compensation paid by railroad employers to
         re-allocate contributions between the fund and the account on a periodic
         basis to better comply with the allocation requirements of the RUIA.

Management’s Response

BFO has agreed to study this matter and plans to re-allocate contributions
between the fund and the account on a periodic basis. The full text of
management’s response is presented as Attachment 1 to this memorandum.

BFO and the Office of General Counsel Could Strengthen Coordination

Better coordination between BFO and the Office of General Counsel would
strengthen and expedite the financial statement preparation process. According
to the RRB’s Management Control Guide, proactive cooperation between
responsible officials is a key indicator of an effective interactive control
environment.

During our audit, we observed that BFO does not request information about the
likelihood of loss due to legal contingencies as early as they could. Instead of
contacting the Office of General Counsel for this information, BFO waits until the
Office of General Counsel submits the information before completing the final
financial statements and submitting them for audit. Delays in completing the
financial statements increase the risk that financial reporting deadlines will not be
met. In addition, we observed that BFO does not have a fully effective process

4
    Railroad Unemployment Insurance Act §8(i)
    Letter to Management                                                                 Page 7
                             Memorandum on Internal Control

for reviewing the likelihood of loss information and as a result, the financial
statements may not be fully accurate.

We also observed that the Office of General Counsel’s formal assessment of the
likelihood of loss on litigation for claims involving potential tax refunds to be paid
from agency trust funds required additional review and revision due to an
inconsistency in the original submission. The Office of General Counsel’s
likelihood of loss assessment determines the financial reporting of contingent
liabilities; accordingly, it is critical that this assessment is complete, accurate, and
timely. 5

Recommendations

We recommend that BFO:

      8. coordinate a schedule for the earlier receipt of financial statement
         information from the Office of General Counsel; and

      9. strengthen the review process over the information used for the
         Commitments and Contingencies Note.

Management’s Response

BFO has agreed to issue and coordinate a revised schedule to obtain earlier
receipt of financial statement information from the Office of General Counsel.
They have also agreed to strengthen the review process over the information
used for the Commitments and Contingency Note. The full text of management’s
response is presented as Attachment 1 to this memorandum.

We recommend that the Office of General Counsel:

      10. strengthen the review process to ensure that the likelihood of loss
          assessment is complete, accurate, and timely.

Management’s Response

The Office of General Counsel has no objection to the recommendation. They
will provide an internal litigation report that addresses the OIG’s concerns. The
full text of management’s response is presented as Attachment 2 to this
memorandum.




5
   Federal Accounting Standards Advisory Board, “Recognition of Contingent Liabilities Arising from
Litigation,” Statement of Federal Financial Accounting Standards No. 12, December 1998, pages 10,
12 & 13.
    Letter to Management                                                                  Page 8
                             Memorandum on Internal Control

Controls Over FMFIA Could Be Improved

In connection with the FY 2009 Financial Statement Audit, the OIG cited the RRB
with a material weakness for internal control over non-integrated subsystems.
This material weakness was also included in the agency’s Federal Managers’
Financial Integrity Act (FMFIA) assurance statement reported in the Performance
and Accountability Report (P&AR). However, the management control
certifications signed by the Senior Executive Officer and Management Control
Review Committee do not include this material weakness.

In accordance with the RRB’s Management Control Guide, management control
certifications provide support for the FMFIA assurance statement reported in the
annual P&AR. Management control certifications from organization heads are
summarized and submitted to the Board Members documenting the overall
control environment and the management controls of the agency. This internal
publication provides the support for the FMFIA assurance statement reported in
the annual P&AR. 6

During our audit, we notified RRB management that the RRB would be cited with
a material weakness for internal controls over non-integrated subsystems.
Although the management control certification from the Management Control
Review Committee postdated our discussion, this material weakness was not
included in their management control certification.

The RRB has not included the material weakness for internal control over non-
integrated subsystems in their management control certifications. As a result,
the FMFIA assurance statement reported in the P&AR is inconsistent with the
management control certifications and not fully supported.

Recommendations

We recommend that the Executive Committee:

      11. implement procedures to determine if there are any new material
          weaknesses identified during the financial statement audit, prior to
          completing the management control certification.

Management’s Response

The Executive Committee has agreed to contact the Chief Financial Officer via
email to verify that no new material weaknesses have been identified prior to the
completion of the management control certification. The full text of
management’s response is presented as Attachment 3 to this memorandum.
6
  “Documentation of Federal Managers’ Financial Integrity Act Activities, Results, and Plans
Supporting the Fiscal Year 2009 Railroad Retirement Board Performance and Accountability
Report”, October 2009.
Letter to Management                                                          Page 9
                        Memorandum on Internal Control

We recommend that the Management Control Review Committee:

   12. implement procedures to determine if there are any new material
       weaknesses identified during the financial statement audit, prior to
       completing the management control certification; and

   13. update procedures to include a comparison of the Management Control
       Certification submitted to the Board Members with the FMFIA assurance
       statement reported in the annual P&AR for consistency.

Management’s Response

The Management Control Review Committee has agreed to implement and
update procedures for this fiscal year’s process. The full text of management’s
response is presented as Attachment 4 to this memorandum.
                                     ATTACHMENT 1                                 PAGE 10

                     UNITED STATES GOVERNMENT	                                           FORM G·1151 [1·821
                                                                         RAILROAD RETIREMENT BOARD
                     MEMORANDUM
                                                                          MAR 04 2010

TO          :	    Diana Kruel
                  Acting Assistant Inspector General for Audit

                                      !/J	 41f.lf~dr
FROM        .     John M. Walter } 4J./f'\...     Jt-" .


                  Chief of Accounting, Treasury, and Financial Systems
                  Through: Kenneth P. Boehne             ----;:::P' ~ _~ . ..P./
                              Chief Financial Officer /~ .T~


SUBJECT:	 Draft Letter to Management - Fiscal Year 2009 Financial Statement Audit


Thank you for the opportunity to comment on the Draft Letter to Management. Our
comments on the recommendations are as follows:

Recommendations:

We recommend that the Bureau of Fiscal Operations:

      1.	        inventory the various non-integrated processes that support financial
                 accounting which should be subject to reconciliation.

                 We will work with other bureaus and offices to inventory and study the
                 various non-integrated processes that support financial accounting. Target
                 date is: August 16, 2010.


      2.	        work with the Executive Committee to secure the cross-organizational
                 cooperation necessary to implement a comprehensive reconciliation
                 process with adequate separation of duties.

                 We will work with the Executive Committee to secure the cross­
                 organizational cooperation necessary to implement a comprehensive
                 reconciliation process. A target date for implementation will be established
                 after reviewing the inventory of non-integrated processes.


      3.	        review the Administrative Circular governing Budget Execution and
                 make updates as needed.

                 The Administrative Circular governing Budget Execution will be updated.
                 Target date is: July 30, 2010.
                             ATTACHMENT 1                                 PAGE 11

                                    -2­

4.	   ensure that procedures for major accounting activities are included in
      the Accounting Procedures Guide.

      We will ensure that procedures for major accounting activities are included
      in the Accounting Procedures Guide. Target date is: September 30,2010.


5.	   revise the content of the trial balance to exclude RRB employees'
      social security numbers.

      We are revising the content of the trial balance to exclude any reference to
      vendor/provider numbers that have social security numbers as part of them.
      Target date is: March 31, 2010.


6.	   implement procedures to safeguard the trial balances that contfjin PII.

      We are implementing procedures to safeguard the older trial balances that
      contain PII. Target date is: April 30, 2010.


7.	   use the quarterly reports of compensation paid by railroad employers
      to re-allocate contributions between the fund and the account on a
      periodic basis to better comply with the allocation requirements of the
      RUIA.

      We are studying this matter and plan to re-allocate contributions between
      the fund and the account on a periodic basis. Target date is: August 31,
      2010.


8.	   coordinate a schedule for the earlier receipt of financial statement
      information from the Office of General Counsel.

      We will issue and coordinate a revised schedule to obtain earlier receipt of
      financial statement information from the Office of General Counsel. Target
      date is: August 31, 2010.


9.	   strengthen the review process over the information used for the
      Commitments and Contingencies Note.

      We will strengthen the review process over the information used for the
      Commitments and Contingencies Note. Target date is: August 31,2010.
                             ATTACHMENT 1     PAGE 12

                                        -3­


cc:	 Georgia Blalock, Budget Officer
     Ed Fleming, Accounting Officer
     Rich Lannin, Senior Accountant
     Liz Stubits, Accountant
     Edie Natividad, Accountant
     Dave Miller, Finance Officer
     Bill Flynn, Executive Assistant
     Jill Roellig, Management Analyst
                             ATTACHMENT 2                                  PAGE 13

                                                                              FORM G-115f(1-92)
               UNITED STATES	 GOVERNMENT
                                                               RAILROAD RETIREMENT BOARD
               MEMORANDUM
                                                                  MAR 08 2010

 TO	           Diana Kruel

               Acting Assistant Inspector General for Audit



 FROM	         Steven A. Bartholow

               General Counsel



 SUBJECT	      Draft Letter to Management

               FY 2009 Financial Statement Audit



This is in response to your memorandum dated February 18,2010 concerning the
draft letter to Management concerning the FY 2009 Financial Statement Audit.
In that draft letter, you recommend that BFO and the Office of General Counsel
Strengthen Coordination of legal contingency reporting. With respect to the
Office of General Counsel, you recommend that our office "strengthen the
review process to ensure that the likelihood of loss assessment is complete,
accurate, and timely."

I have no objection to the recommendation. I believe that we have in place an
internal litigation report that addresses your concerns. I will be submitting it for
your review. Going forward, I will send the Chief Financial Officer a copy of the
litigation report as it is updated each month.


cc:	 Chief Financial Officer
     Assistant General Counsel
     Assistant General Counsel/Director of Hearings and Appeals
                                    ATTACHMENT 3                                      PAGE 14
                                                                                       FORM G-1151 (1-92)
                     UNI'PED STA'I'~;S GOVERNMl<;N'l'
                                                                      RAILROAD RETIREMI<;N'I' BOARD
                     MEMORANDUM


                                                                      March 3, 2010

TO	          Diana Kruel
             Acting Assistant Inspector General for Audit


FROM



SUBJECT:	 Draft etter to Management
          FY 2009 Financial Statement Audit


Thank you for the opportunity to comment on the subject draft letter. My comment on the
recommendation directed to the Executive Committee is as follows:

Recommendation:

We recommend that the Executive Committee (EC):

      11. implement procedures to determine if there are any new material weaknesses
        identified during the financial statement audit, prior to completing the
        management control certification.

The Executive Committee concurs with the recommendation and will adopt the
recommendation by contacting the Chief Financial Officer via email to verify that no new
material weaknesses have been identified prior to the completion of the management control
certification. Implementation of this procedure will be for this fiscal year's process. Our target
date is: September 30, 2010.
                                            ATTACHMENT 4                                                PAGE 15
                        UNITED STATES GOVERNMENT                                                              FORM G·115f 11-82l
                                                                                         RAILROAD RETIREMENT BOARD
                        MEMORANDUM

                                                                                         MAR 042010
 TO	                Diana Kruel

                    Acting Assistant Inspector General for Audit


 FROM	              Management Control Review Committee


 SUBJECT:	          Draft Letter to Management - Fiscal Year 2009 Financial Statement Audit


 Thank you for the opportunity to comment on the Draft Letter to Management. The FIVIFIA
 documentation transmittal memorandum which the Chief Financial Officer released to the Board
 Members stated that the Office of Inspector General recently notified us that for fiscal year 2009
 they will be reporting Non-Integrated Subsystems as a material weakness. Nevertheless, in the
 future, we plan to include any recently identified material weaknesses in the Management
 Control Certification memorandum itself. Our comments on the recommendations are as
 follows:

 Recommendations:

 We recommend that the Management Control Review Committee (MCRC):

       12.	 implement procedures to determine if there are any new material weaknesses
            identified during the financial statement audit, prior to completing the
            management control certification; and

             We will implement procedures for this fiscal year's process. Our target date is:
             November 30, 2010.

       13.	 update procedures to include a comparison of the Management Control
            Certification submitted to the Board Members with the FMFIA assurance
            statement reported in the annual P&AR for consistency.

            We will update procedures for this fiscal year's process. Our target date is:
            November 30, 2010.




 John M. Walter	                      Catherine A. Leyser                       Patricia Kirch
 Chair                                Alternate Chair                           Director of Unemployment & Programs
 Chief of Accounting, Treasury, and   Director of Assessment and Training       Support - Operations
 Financial Systems
                                           .. /7
~???#~~~
 Charles P. Mierzwa
                                       ~--
                                      ~~llYMUi 1	
                                                  ~-9?~
                                                                                Eric T. Wooden
 Records Officer                      Executive Assistant to Senior Executive   General Attorney
                                      OfficerlDirector of Administration
                                       ATTACHMENT 4      PAGE 16
                                               -2­


cc:	   Kenneth P. Boehne, Chief Financial Officer
       Hattie Fitzgerald, Financial Compliance Officer
       Paula Lewis, Systems Accountant
       Bill Flynn, Executive Assistant
       Jill Roellig, Management Analyst
